FEC -- Audit of Accounts Payable Balance as of 9/30/95:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of the Payroll System:  Executive Summary
August 17, 1995
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an Agreed-Upon
Procedures audit of the Federal Election Commission's (FEC)
Payroll System.  The audit covered the Fiscal Year ending
September 30, 1994.
Financial audits include financial statement and financial
related audits. As described in the General Accounting Office
(GAO) Government Auditing Standards Revised Edition 1994,
financial statement audits are designed to provide reasonable
assurance about whether the financial statements of an audited
entity present fairly the financial position, results of
operations, and cash flows in conformity with generally accepted
accounting principles as set forth by the American Institute of
Certified Public Accountants (AICPA) and Government Accounting
Standards Board (GASB).  The audit is performed in accordance
with Generally Accepted Government Auditing Standards (GAGAS).
Financial related audits focus on an element(s), segment(s), or
account(s) of a financial statement.  This type of audit focuses
on determining whether (1) financial presentation is presented in
accordance with established, or stated criteria, (2) the entity
has adhered to specific financial compliance requirements, or (3)
the entity's internal control structure over financial reporting
and/or safeguarding assets is suitably designed and implemented
to achieve control objectives.
The Agreed-Upon procedures audit is a type of financial related
audit (not a financial statement audit), performed in accordance
with GAO's Government Auditing Standards. Standard testing
procedures were agreed-upon and used to audit the Statement of
Financial Position accounts of  payroll expense and related
liabilities.  Our procedures also included an internal control
review of risk areas associated with the payroll disbursements
cycle.  Specific procedures used to perform the audit are
included as part of the report. We did not perform a financial
statement audit.   We applied procedures to accounts of the
agency's financial statements.  The specific type of report, used
generally for federal agencies, is an agreed-upon procedures
report.  We did not apply all the procedures required for a
financial statement audit as required by the GAO Government
Auditing Standards.  While we followed applicable AICPA standards
and performed the audit in accordance with GAGAS standards, we
did not attest to the financial statements taken as a whole, and
therefore cannot provide an opinion.
The objectives of the audit were:
1)   To determine that payroll disbursements were made for
work authorized and performed;
2)   To verify that payroll, including withholdings and
deductions, is computed using rates and other factors
in accordance with Federal salary schedules and
applicable laws;
3)   To ensure that payroll expense and related liabilities
are recorded correctly as to amount, period and
disclosures are adequate.
We conducted an internal control review of the payroll system to
identify the risks associated with payroll and assess the control
procedures established by the FEC Payroll and Accounting Office
(PAO) to detect or prevent risks.  Major risks include
unauthorized and/or inaccurate payroll disbursements and
deductions, time and attendance and unreliable financial
information.  Procedures used during this phase included
inquiries of personnel, observation of control procedures,
inspection of payroll documents and re-performance of PAO
procedures.  The results of the internal control review are
presented in Appendix I.
We performed substantive testing of 64 payroll folders to
evaluate the adequacy and effectiveness of the controls in
reducing risk.  The payroll folders contain all time and
attendance reports, and amendments, and payroll related data and
information, including documentation to support withholdings,
deductions and changes to these items for every employee.
Procedures included tests of payroll disbursements, time and
attendance, and authorized deductions.  Additionally, our
procedures included the testing of payroll reconciliations to
general ledger balances, verification of the money value of
ending annual leave balances and other analytical procedures.
Our random sample was selected from all active employees as of
September 30, 1994.
Based on our review of internal controls, we determined that,
overall, the PAO has established adequate, effective control
procedures.  The following is a summary of the results of our
substantive review of 64 employee payroll records and audit of
payroll financial data:
Time and Attendance
Hours reported for overtime, credit, compensatory time and
donated leave were properly supported, approved, and accurately
recorded in the payroll system.  Annual, sick, advanced annual
and advanced sick hours were properly calculated and recorded in
the payroll system.
Payroll Disbursements
Payroll disbursements, including cash awards and overtime (if
applicable), were adequately supported and accurately recorded in
the payroll system for all 64 employees.  Our audit showed that
for all 64 employees, the annual salaries and rates were
adequately supported and recorded in the payroll system.
Employee withholding documentation
All 64 employee withholdings tested for federal/state taxes,
social security, health, retirement (CSRS/FERS), savings bond,
life insurance, union dues, Thrift Savings Plan, and other
allotments, were adequately documented, properly authorized and
accurately recorded in the payroll system.
Money Value of Annual Leave
The Accrued Unfunded Annual Leave balance reported in the FEC
Combined Statement of Financial Position reflects the unfunded
annual leave liability of the federal government as of the end of
the fiscal year. The liability is the product of  the hourly rate
and annual leave balance as of the end of the fiscal year (Money
Value of Annual Leave).
Our audit of ending annual leave balances for the 64 employees
agreed to both the payroll system's Leave Balance Report and the
timekeepers Annual Attendance Records for the end of the fiscal
year.  The ending leave hours and the pay rate applied to those
hours agreed to the Money Value of Annual Leave Report for the
same period.  Based on our review of 64 of 317 employee ending
leave balances as of September 30, 1994, the Unfunded Annual
Leave liability reported in the Combined Statement of Financial
Position is fairly stated [General Ledger (G/L) 2220].
Payroll and Accounting System Reconciliation
GAO Title VI "Pay, Leave and Allowances" requires that agency
payroll systems provide accurate, timely and complete financial
data to the general ledger in order to provide information to
prepare, transmit and analyze various agency financial reports.
We reconciled the personnel compensation (excluding benefits)
expense reported by the payroll system to the general ledger
(adjusted to a fiscal year basis) and to the internal Budget
Execution Report as of September 30, 1994.
We reviewed the journal voucher which recorded to the general
ledger payroll expense earned but not paid as of September 30,
1994.  Based on our review of supporting subsidiary records, the
ending balance reported for Accrued Funded Payroll and Benefits
(G/L account 2210) are fairly stated.
Determinations and Suggestions
The results of our procedures did not disclose any  significant
control weaknesses or instances of non-compliance with federal
laws and regulations or FEC policy.  However, we are presenting
the following suggestions for changes to strengthen the existing
controls over management of time and attendance and Treasury
checks.
Condition 1
As required on the Annual Attendance Record, not all supervisors
documented the semi-annual review by signing and dating in the
blocks provided.
The FEC Time and Attendance Procedures Manual requires a review
but does not clarify that this record is supposed to be signed
twice a year ( May and November ), or the disposition of the
record at the end of the fiscal year.
Federal Election Commission Time and Attendance Manual, dated
1989 and 1995.
FEC Form 10-3 Annual Attendance Record (bottom right of record).
Supervision of time and attendance is weakened. A certified
independent verification of  leave balances is provided for, but
not used.
Suggestion
The current Time and Attendance Procedures Manual should be
amended to require the signature of supervisors and to clarify
the reasons why this is an important procedure. Our testing
showed that, without exception, all 64 annual leave records were
completed and had accurate ending balances for the fiscal year
ending September 30, 1994.  The timekeepers are to be commended
and the supervisors should, at a minimum, acknowledge their work
with signatures.
The record serves as an independent verification of  regular
hours worked, compensatory time, credit hours, donated hours
received and donated, and annual and sick leave balances.  While
processing controls are in place for advanced annual and sick
leave, the system is designed to automatically advance leave.
The review of this record will alert the supervisor that an
employee's balance is low, or in a negative status, requiring
proper prior approval.
Equally important, the annual leave record also serves as an
independent audit for lump sum annual leave payments to
terminated employees and supports annual and sick leave balances
forward for those employees transferring to other federal
agencies.  Limited testing of terminated employee files found
that the annual leave record was not being used to verify the
payroll system's balance.
The annual attendance record should be maintained on file with
the timekeeper for six (6) years and forwarded to payroll when an
employee terminates or transfers to another agency.
Condition 2
Internal control over (non-Travel) Treasury checks could be
strengthened.
Procedures are not established. The majority of checks were
disbursed to supervisors/division heads for performance and cash
awards.
GAO Title VII Fiscal Guidance, Chapter 6 Disbursements requires
that "Agency controls should ensure that amounts paid by
disbursing officers were in accordance with the payment
information certified to them on vouchers or voucher schedules.
Such controls should also include procedures for ensuring the
proper custody, signing, and delivery of checks."
Lack of control may result in inability to account for lost,
stolen or misplaced checks.
Suggestion
Due to the large amounts, and in some cases large volume of award
checks, have the person picking up the checks sign for receipt of
the checks.